                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: Al1020015.                                                                       Page 1 of 1



                  We received an allegation th~t a PI 1 had plagiarized in a proposal submitted to NSF. 2 We
          sent the Subject an inquiry letter, and in response, she noted that some material was authored by her
          laboratory head and colleagues, who gave her permission to use the text. Her colleagues and
          laboratory head had reviewed her proposal and approved the use of their text. Based on these facts,
          we concluded her actions do not significantly deviate from commonly accepted practices.
          Nevertheless, we sent the Subject a warning letter informing her that even text copied with
          permission requires citation.

          Accordingly, this case is closed.




NSF OIG Form 2 (11102)
